BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Amicus Brief of the States of Louisiana,
Arkansas, Indiana, Nebraska, Oklahoma, and Texas in
Support of the Petition for Certiorari in 19-427, Polk
County v. J.K.J. and M.J.J., was sent via Three Day
Service to the U.S. Supreme Court, and via Three Day
and e-mail service to the following parties listed below,
this 2nd day of November, 2020:
Erin E. Murphy
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
erin.murphy@kirkland.com
Counsel for Petitioner
Thomas J. Weidner
Eckberg, Lammers, P.C.
1809 Northwestern Avenue
Stillwater, MN 55082
(651) 351-2119
tweidner@eckberglammers.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

· 8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
, Washington, DC 20005

Elizabeth B. Murrill
Solicitor General
Counsel of Record
Louisiana Department of Justice
1885 N. Third Street
Baton Rouge, LA 70804
(225) 326-6766

murrille@ag.louisiana.gov

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 2, 2020.

Wo

DonnaJ.
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~V<--vl ~

drht /j'

Notary Public
[seal]

JOHN 0. GALLAGHER
Notary Public, State al Ohio
My Commission Expires
February 14, 2023

